OIG Investigative Reports, Press Release: Philadelphia, PA December 15, 2009 - Former Board President Sentenced in Charter School Fraud Case
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
FOR IMMEDIATE RELEASE:
December 15, 2009
U.S. Department of Justice
United States Attorney
Eastern District of Pennsylvania
615 Chestnut Street
Suite 1250
Philadelphia, Pennsylvania 19106-4476
Contact: (215) 861-8200
Former Board President Sentenced in Charter School Fraud Case.
PHILADELPHIA—Rosemary DiLacqua, 51, of Philadelphia, was sentenced today to a year and a day in prison for honest services mail fraud committed while she was board president for the Philadelphia Academy Charter School (“PACS”), announced United States Attorney Michael L. Levy. DiLacqua accepted a total of approximately $34,000 in payments from codefendant Kevin O’Shea, the former CEO of PACS, and another former school official that she did not disclose on her mandatory statement of financial interest form or to the other board members. After receiving these undisclosed payments, DiLacqua approved a series of salary increases for O’Shea and also a 20-year consulting contract for the other former school official that would have paid him in excess of $100,000 annually for no more than 90 days of consulting each year. When O’Shea left PACS the following Spring (May 2008), he was earning in excess of $200,000 in salary from PACS.
DiLacqua pleaded guilty to the charge in July 2009. In addition to the prison term, U.S. District Court Judge Eduardo C. Robreno ordered DiLacqua to pay a fine in the amount of $10,000 and to pay a special assessment of $100. Co-defendant Kevin O’Shea was sentenced, in October, to 37 months in prison and $900,000 restitution.
This case was investigated by the United States Department of Education Office of Inspector General, the Federal Bureau of Investigation, and the Internal Revenue Service Criminal Investigation Division. The School District of Philadelphia’s Office of Inspector General assisted in the investigation. It was prosecuted by Assistant United States Attorney Derek A. Cohen.
Top
Printable view
Last Modified: 12/16/2009
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov